o. 19-1309

I THE

~upreme QCourt of tbe 'illlniteb $ tates
KARI ] ANAE P HIPP,

P etitioner.
v.
STATE OF IDAHO,

R espondent.

CERTlF ICATE OF SERVICE
Pursuant to this Court's April 15, 2020, Order and Rule 29 of the Rules of this Court, l
hereby certify that I a m a member in good standing of the bar of this Court and that on this 22nd
day of June, 2020, all parties required to be served have been served with an electronic copy and
one pa per copy of the Brief for Idaho Association of Criminal Defense Lawyers as A m icus Curiae
in Support of P etitioner.
Am ir IJ. Ali

R ODER lCK & SO LANCE MACARTH UR J USTfCE

CE

TER

777 6th Street, .W.
11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarth urjusticc.org
Counsel for P etitioner

Kenneth K. J orgensen
O FFICE Of JOA.HO ATTOR EY GEt E RAL

Statehouse Room 210
P.O. Box 83720
Boise, ID 83720
(208) 332-354]
ken .jorgensen@ag.idaho.gov
Cmm.sel for Respon dent

